<html>
<title> - LYTTON RANCHERIA OF CALIFORNIA</title>
<body><pre>[Senate Hearing 109-18]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 109-18

                     LYTTON RANCHERIA OF CALIFORNIA

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON

                                 S. 113

   TO MODIFY THE DATE AS OF WHICH CERTAIN TRIBAL LAND OF THE LYTTON 
         RANCHERIA OF CALIFORNIA IS DEEMED TO BE HELD IN TRUST

                               __________

                             APRIL 5, 2005
                             WASHINGTON, DC



                    U.S. GOVERNMENT PRINTING OFFICE
21-799                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

                     JOHN McCAIN, Arizona, Chairman

              BYRON L. DORGAN, North Dakota, Vice Chairman

PETE V. DOMENICI, New Mexico         DANIEL K. INOUYE, Hawaii
CRAIG THOMAS, Wyoming                KENT CONRAD, North Dakota
GORDON SMITH, Oregon                 DANIEL K. AKAKA, Hawaii
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
MICHAEL D. CRAPO, Idaho              MARIA CANTWELL, Washington
RICHARD BURR, North Carolina
TOM COBURN, M.D., Oklahoma

                 Jeanne Bumpus, Majority Staff Director

                Sara G. Garland, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
S. 113, text of..................................................     2
Statements:
    Arner, Rock, city manager, city of San Pablo, San Pablo, CA..    14
    Brown, Sharon J., council member, city of San Pablo, San 
      Pablo, CA..................................................    14
    Dorgan, Hon. Byron L., U.S. Senator from North Dakota, vice 
      chairman, Committee on Indian Affairs......................     3
    Feinstein, Dianne, U.S. Senator from California..............     4
    Hancock, Loni, assembly member, 14th Assembly District, 
      Sacramento, CA.............................................    19
    Inouye, Hon. Daniel K., U.S. Senator from Hawaii.............     4
    Macarro, Mark, chairman, Pechanga Band of Luiseno Indians....    21
    McCain, Hon. John, U.S. Senator from Arizona, chairman, 
      Committee on Indian Affairs................................     1
    Mejia, Margie, chairperson, Lytton Rancheria, Santa Rosa, CA.    17
    Miller, Hon. George, U.S. Representative from California.....     7
    Skibine, George T., acting deputy assistant secretary for 
      policy and economic development for Indian affairs, 
      Department of the Interior.................................    11

                                Appendix

Prepared statements:
    .............................................................
    Brown, Sharon J. (with attachment)...........................    37
    Hancock, Loni................................................    30
    Macarro, Mark................................................    31
    Mejia, Margie................................................    32
    Miller, Hon. George, U.S. Representative from California.....    27
    Sammut, Dennis J., president, Artichoke Joe's Casino, San 
      Bruno, CA..................................................    48
    Skibine, George T............................................    35
Additional material submitted for the record:
    Brown, Harold C., president, Marin County, CA, Board of 
      Supervisors, letter........................................    59
    Gambling on Tribal Lands, Legislative Constitutional 
      Admendment, Text of Proposition 1A.........................    60
    Lyons, Maurice, chairman, Tribal Council, Morongo Band of 
      Mission Indians, letter....................................    70
    Uilkema, Gayle B., chair, Board of Supervisors, Contra Costa 
      County, CA, letter with resolution.........................    72

 
                     LYTTON RANCHERIA OF CALIFORNIA

                              ----------                              


                         TUESDAY, APRIL 5, 2005


                                       U.S. Senate,
                               Committee on Indian Affairs,
    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
562, Senate Dirksen Building, Hon. John McCain (chairman of the 
committee) presiding.
    Present: Senators McCain, Dorgan, Inouye, and Thomas.

   STATEMENT OF HON. JOHN McCAIN, U.S. SENATOR FROM ARIZONA, 
             CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    The Chairman. Good morning. This morning, we will hear 
testimony supporting and opposing S. 113, a bill introduced by 
Senator Feinstein to remove language from the Omnibus Indian 
Advancement Act that benefited the Lytton Rancheria of 
California.
    [Text of S. 113 follows:]
  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Chairman. This language had the effect of making 
certain property in the San Francisco Bay Area immediately 
eligible for gaming pursuant to the Indian Gaming Regulatory 
Act without going through the normal processes required under 
that act.
    I have said before that I have concerns with the manner in 
which the Lytton's off-reservation casino was authorized. The 
question before us now, however, is what to do about it. The 
Lytton Band of Pomo declared just last month that it is no 
longer seeking legislative ratification of the gaming compact 
and so the prospect of a class III casino with thousands of 
slot machines is not imminent.
    Nevertheless, the issue, as we will hear today, is still 
controversial. I look forward to hearing from all of our 
witnesses. It has been my practice for many years that when a 
member of the Senate requests a hearing on an issue that I have 
tried to accommodate those wishes. Even after the Lytton 
Rancheria changed their plans, I asked Senator Feinstein if she 
wanted to still proceed with the hearing. She said she did so, 
so therefore we are going to have this hearing today.
    This will not be the last hearing in this committee of the 
issue of taking land into trust for purposes of gaming. I note 
the presence of my friend, Senator Inouye, with whom I worked 
on the Indian Gaming Regulatory Act. I think he would agree 
that never in our wildest dreams at the time of the formulation 
of that legislation did we envision that Indian gaming would 
become the $19 billion a year enterprise that it is today. It 
is long overdue time to review the impact and implications of 
the Indian Gaming Regulatory Act from a broad variety of 
aspects, not just that of taking land into trust for gambling 
purposes, but whether there is sufficient oversight of Indian 
gaming and whether there needs to be better enforcement of 
existing law.
    I thank Senator Feinstein and my old friend from the House 
of Representatives, Congressman George Miller, if he would come 
forward. I will recognize Senator Dorgan and then Senator 
Thomas and then Senator Inouye.
    Senator Dorgan.

  STATEMENT OF HON. BYRON L. DORGAN, U.S. SENATOR FROM NORTH 
       DAKOTA, VICE CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Dorgan. Mr. Chairman, thank you very much. Let me 
again say I appreciate your holding this hearing. This is a 
hearing that is being held at the request of Senator Feinstein 
on her bill, S. 113, the Lytton Gaming Compliance Act, a bill 
that would require the Lytton Band to utilize the land into 
trust process established by the Department of the Interior 
before gaming could be conducted on the land.
    I think it is important to point out that this hearing is 
only about the Lytton Band legislation. It is not intended to 
be a general discussion about the policy of off-reservation 
gaming. I say that because while I think a discussion of that 
issue is important and we likely will have that type of 
discussion in other hearings, it will require much more input 
and much broader representation than we have called for at this 
hearing.
    Again, I welcome our colleagues, Senator Feinstein, and my 
colleague from my days in the House, Congressman Miller.
    The Chairman. Senator Thomas.
    Senator Thomas. Thank you, Mr. Chairman. I have no 
questions.
    The Chairman. I hope you get better soon. [Laughter.]
    The Chairman. Senator Inouye.

  STATEMENT OF HON. DANIEL K. INOUYE, U.S. SENATOR FROM HAWAII

    Senator Inouye. Thank you very much, Mr. Chairman, and 
welcome to the committee, Senator Feinstein and Congressman 
Miller. I believe it is important that we understand the 
historical background of the bill that we address today.
    For nearly 30 years from 1962-91, the Lytton Rancheria was 
terminated from its federally recognized status. As part of its 
effort to regain that status, litigation was initiated by the 
tribe. The county of Sonoma intervened in that lawsuit and as a 
condition of the county's consent to a forthcoming settlement 
of the legal action, certain conditions were imposed which 
precluded the tribe from initiating economic development 
activities on the tribe's traditional lands.
    Thus, from the outset of the restoration of the tribe's 
federally recognized status, the tribe was forced to look to 
other areas for the development of the tribe's economy. In 
2000, Representative George Miller proposed an amendment to the 
Omnibus Indian Advancement Act of that year, which identified 
lands to be taken into trust for the Lytton Band and deemed 
those lands to have been taken into trust prior to October 17, 
1988, the date of the enactment of the Indian Gaming Regulatory 
Act.
    The bill, as amended by the House on October 26, 2000, came 
back to the Senate, where it was pending on the Senate calendar 
until December 11, 2000, when the bill was taken up and passed 
by the Senate. In those 45 days in which the amended bill was 
pending in the Senate, the customary protocol was followed to 
assure that the amendment was agreed to not only by the offices 
of the California Senators, but that the amendment was 
acceptable to other Senators prior to action on the bill in the 
Senate.
    Legislative history is clearly documented in the records of 
the Senate for all to examine.
    Accordingly, I would hope that when this measure is 
addressed that we take into consideration these critical 
aspects of the legislative history that led to enactment of the 
amendment to the Omnibus Indian Advancement Act of 2000, 
including a subsequent amendment to the Act which provides that 
the Lytton Band must comply with all aspects of the Indian 
Gaming Regulatory Act in the conduct of any gaming activities 
on the tribe's lands.
    I thank you very much, Mr. Chairman.
    The Chairman. Thank you, sir.
    Welcome, Senator Feinstein.

  STATEMENT OF DIANNE FEINSTEIN, U.S. SENATOR FROM CALIFORNIA

    Senator Feinstein. Thank you very much, Senator McCain, 
Senator Dorgan, Senator Inouye, Senator Thomas. I very much 
appreciate this hearing. I introduced this bill, as you know, 
in the last Congress and in this Congress as well. I would be 
hopeful that you can give it consideration and that we can get 
it passed.
    This bill is the Lytton Gaming Compliance Act, S. 113. It 
has one simple purpose, to ensure that the Lytton Tribe follows 
the regular process set out under the Indian Gaming Regulatory 
Act for gaming on newly acquired lands. This legislation 
strikes a provision inserted into the Omnibus Indian 
Advancement Act of 2000. That provision mandated the Secretary 
of the Interior to take a card club and adjacent parking lot in 
the San Francisco Bay Area into trust for the Lytton Tribe as 
their reservation and backdate that acquisition to October 17, 
1988, or pre-IGRA.
    This backdating was done expressly with the purpose of 
allowing the Lytton Tribe to circumvent IGRA's two-part 
determination process, an important step that requires both 
secretarial and gubernatorial approval, along with consultation 
with nearby tribes and the local community. The legislation 
that I have introduced would simply return the Lytton Tribe to 
the same status as all other tribes seeking to game on newly 
acquired lands.
    I also want to emphasize what the bill will not do. It 
would not remove the tribe's recognition status. It would not 
alter the trust status of the new reservation nor would it take 
away the tribe's ability to conduct gaming through the normal 
IGRA process. Section 20 of the Indian Gaming Regulatory Act 
has clear guidelines for addressing the issue of gaming on so-
called newly acquired lands, or lands that have been taken into 
trust since IGRA's enactment in 1988.
    Most importantly, in my opinion, IGRA includes a process 
called the two-part determination, which provides for both 
Federal and State approval, while protecting the rights of 
nearby tribes and local communities. Circumventing this process 
creates a variety of serious and critical multi-jurisdictional 
issues, issues which can negatively affect the lives of 
ordinary citizens and deprive local and tribal governments of 
their ability to effectively represent their communities.
    Nevertheless, I think we need to be honest about the real 
reason we have seen a proliferation of cases like the Lytton 
with an increasing number of tribes attempting to open casinos 
outside of traditional Indian lands. Attempts at off-
reservation gaming and the practice of reservation shopping 
have increased dramatically in California over the past 5 
years.
    It is now estimated that there may be over 20 proposals to 
game outside of tribal lands in California. I have watched as 
out-of-State gaming developers have sought out tribes offering 
to assist them in developing casinos near lucrative sites in 
urban areas, and along central transit routes far from any 
nexus to their historic land. Today in the San Francisco Bay 
Area alone, there are at least five such proposals.
    Let's go back to proposition 1A. Off-reservation gaming was 
clearly not what the people of California voted for when they 
overwhelmingly passed proposition 1A in March 2000 to allow 
tribes in my State to engage in Nevada-style gaming on tribal 
lands. Not only did the proposition language clearly state that 
gaming would take place on Indian or tribal lands, but this 
claim permeated the entire campaign in support of Indian 
gaming.
    Let me give you a few examples. Let me read from the 
argument in favor of proposition 1A.

    We are asking you to vote yes on 1A so we can keep the 
gaming we have on our reservations. We thank you for your past 
support and need your help now to protect Indian self-reliance 
once and for all.

    It goes on.

    So 1A has been put on the March ballot to resolve this 
technicality and establish clearly that Indian gaming on tribal 
lands is legal in California.

    Then it goes on to describe 1A as a simple constitutional 
measure that allows Indian gaming in California.

    It protects Indian self-reliance by finally providing clear 
legal authority for Indian tribes to conduct specific gaming 
activities on tribal lands.

    It goes on this way. I would like to submit for the record 
proposition 1A, the arguments both pro and con that appeared on 
the ballot, if I might.
    The Chairman. Without objection.
    [Referenced documents appears in appendix.]
    Senator Feinstein. Mr. Chairman, in conclusion, without 
this bill, the Lytton will be able to take a former card club 
and adjacent parking lot as their reservation and turn it into 
a large gambling complex outside of the regulations set up by 
the Indian Gaming Regulatory Act.
    Let me make very clear, I oppose off-reservation gaming in 
California. This is not what the people voted for in the year 
2000. It is a perversion of that legislation and it should not 
happen without another initiative that specifically approves 
it.
    Even though the tribe recently announced that it was 
temporarily dropping its pursuit of a casino, it could reverse 
these plans at any time and proceed with both class II and 
class III gaming without first going through the regular 
process. Allowing this to happen would set a dangerous 
precedent, not only for California, but every State where 
tribal gaming is permitted. I do not think it is asking too 
much to require that the Lytton be subject to the regulatory 
and approval processes applicable to all other tribes by the 
Indian Gaming Regulatory Act.
    I thank the committee for allowing me this opportunity, and 
would hopefully ask for your support so that this bill could go 
to the floor.
    Thank you very much, Mr. Chairman.
    [Prepared statement of Senator Feinstein appears in 
appendix.]
    The Chairman. Thank you very much, Senator Feinstein.
    We are pleased to welcome our old friend George Miller.
    Senator Feinstein. May I be excused? We have the Patriot 
Act in Judiciary.
    The Chairman. Yes, ma'am.
    Senator Feinstein. I appreciate it. Thank you very much.
    The Chairman. I think you answered the only question that I 
had, and that was that since the Lytton Band has changed their 
proposal that that does not change your commitment to this 
legislation.
    Senator Feinstein. No; the Governor visited with me not too 
long ago. He felt he had the votes for the compact. I 
understand there are not the votes for the compact. 
Nonetheless, should the situation change, it could move ahead 
and again, it would be obfuscating the process and I believe 
the process ought to be carried out for each and every tribe on 
a regular basis.
    The Chairman. Thank you very much.
    Welcome, George.

   STATEMENT OF HON. GEORGE MILLER, U.S. REPRESENTATIVE FROM 
                           CALIFORNIA

    Mr. Miller. Thank you, Mr. Chairman and members of the 
committee. Thank you for your time this morning. I appreciate 
the opportunity to testify.
    Senator Feinstein, it was a pleasure to be with you. We do 
not agree on this issue, but we have worked on a number of 
other issues with respect to our State.
    I would like to submit my written statement for the record.
    The Chairman. Without objection.
    Mr. Miller. I would also like to recognize several 
constituents and local representatives who will testify here. 
Assemblywoman Loni Hancock represents part of this area with me 
in her district. She is a strong advocate for our community. 
Mayor Sharon Brown and City Manager Brock Arner of the city of 
San Pablo are here. They are working very hard to stimulate 
economic development in the city. I appreciate their efforts on 
behalf of the residents of San Pablo.
    Today's hearing concerns the Lytton Band of Pomo Indians in 
the city of San Pablo in my district and their effort to work 
together to meet mutual goals of desperately needed economic 
development. I support these efforts.
    My involvement with this matter dates back to 1999 and 2000 
when I was approached by the city to discuss the interests in 
working with the Lytton Band to help them acquire an existing 
card room in San Pablo for the purposes of renovating it and 
building a modest-sized casino. The tribe made a good-faith 
effort to work through the Department of the Interior to win 
the right to acquire this land for the purposes of gaming under 
the Indian Gaming Regulatory Act, but due to special 
circumstances affecting the tribe, it is my understanding the 
tribe was told by the department that they would be turned 
down.
    After much discussion and detailed review of the 
circumstances, I agreed to help the city and the tribe. I 
supported their project for several reasons. The local 
community, including the police department, supported the 
project. The city stood to make significant economic 
development gains from the project. The tribe had a clear need 
and a legitimate right to pursue lands for the purposes of 
economic development and made a good-faith effort to work 
through the Department of Interior to do so. I have a 
longstanding history of supporting the sovereign rights of 
Indian tribes.
    The issue of whether or not American Indians should be 
involved in gaming is not an issue here. There are opponents of 
gaming for many reasons, some personal, some moral, some simply 
competitive. Of course, there are many proponents of gaming. 
There are card rooms throughout the Bay Area and extensive 
lottery programs, race tracks and the California constitution 
allows Indian gaming. Personally, I am neither a proponent or 
opponent of gaming per se. I am, however, a strong defender of 
the economic development of Indian sovereignty.
    As you will hear in greater detail today from the Lytton's 
Chairperson Margie Mejia, the Lytton Band was wrongfully 
terminated in the 1960's. A Federal court restored the tribal 
status in 1991. The Lyttons are poor people, many of whom are 
homeless. The tribe is concerned about preserving its tribal 
heritage and providing economic means for its members. The city 
of San Pablo and the Lyttons share much in common. San Pablo is 
one of the poorest cities in the Bay Area. It is a small city 
with little economic activity. It has a poverty rate of 18 
percent, twice that of the entire Bay Area and more than twice 
of that of the county in which it resides. Its unemployment 
rate is higher than that of the Bay Area and the county and 
more than 90 percent of the city's residents work outside the 
city because there are not enough jobs created within the city.
    The key question before this committee is whether it was 
appropriate for Congress to have passed section 819 of the 
Omnibus Indian Advancement Act in 2000 on behalf of the Lytton 
Band. It believe that it was appropriate and that the provision 
should stand as written.
    As you know, the U.S. Constitution gives Congress plenary 
authority over Indian tribes that pass laws for their benefit. 
Congress is fully within its rights to pass the legislation 
directing the Secretary to place lands into trust for 
particular tribes and does so on a regular basis. In just the 
last 108th Congress, at least 10 bills became law, placed lands 
into trust for various reasons for various benefits to Indian 
tribes.
    This may happen for any number of reasons Congress 
determines is prudent. It may be part of a settlement agreement 
of land claims. For instance, in the Pechanga Indian Tribe that 
is scheduled to testify later today, the desire was to protect 
certain important lands from possible desecration. In the last 
Congress, we even took lands out of a national park and placed 
it into trust for one tribe. In the Gila River water settlement 
law, we were required to act in Congress to concur to bring 
lands into trust for the tribe.
    In most cases, including the ones I mentioned here, the 
tribe attempts to go through the BIA process, becomes 
frustrated for one reason or another, and comes to Congress to 
plead its case. In fact, the highly touted bill with the Lytton 
provision also included 14 other provisions to take lands into 
trust for Indian tribes, including one provision that held the 
land to be considered in trust as of 1909.
    The Lyttons have a special circumstance that I believe 
distinguishes them from most other tribes in California that 
necessitated congressional action. In 1991, the Federal court 
settlement that restored the Lyttons tribal status and that of 
numerous other California tribes included one unusual provision 
pertaining only to Lyttons. The court order restoring Lytton's 
tribal status contained the unique limitation that precluded 
the Secretary of the Interior from taking lands in Sonoma 
County, the Lyttons ancestral lands, into trust for the benefit 
of the Lytton Band for any use inconsistent with the Sonoma 
County general plan. In effect, the limitation denied the 
Lyttons any rights to use their ancestral land for gaming.
    The order, however, did not put any restrictions on the 
ability of Lyttons to pursue other lands to be taken into trust 
for them for gaming or other activities. The limitation created 
a special circumstance when the Lyttons appealed to the 
Department of the Interior for the exception of the Indian 
Gaming Regulatory Act. I think it is fairly clear that under 
any ordinary circumstances they would have qualified for 
exception number four, lands that are taken into trust for part 
of a restoration of lands for Indian tribes that is restored to 
Federal recognition, but that was not so because of the 
prohibition on the Sonoma County general plan.
    The lands that the tribe sought were not their ancestral 
lands, nor contiguous to their ancestral lands. It is my 
understanding that the BIA denied the tribe the exception under 
IGRA because of the lands issue, and yet as I explained, the 
court settlement forbade the tribes from using their ancestral 
lands.
    The Lyttons are the only tribe in California, perhaps the 
only tribe in the United States, that as a condition of 
restoration of tribal status, was expressly deprived the 
opportunity to exercise rights under the Indian Gaming 
Regulatory Act on its ancestral lands. I do not believe that 
the existing law anticipated the unusual circumstances, and 
therefore Congress, which has the authority to intervene on 
these matters, appropriately remedied this situation.
    This is what the issue boils down to. Through no fault of 
their own, the Lytton Tribe was illegally stripped of their 
status as a federally recognized Indian tribe and denied their 
rights for decade until it was restored to its proper status by 
our judicial system. Had the tribe never been illegally 
terminated, there would have been no question of the Lyttons 
ability to operate gaming within their ancestral area.
    I thought that the BIA would except the land under the IGRA 
exceptions for restored tribes, but when I was told it would 
not, I believe that was a mistake, and even then Assistant 
Secretary for Indian Affairs Kevin Gover was quoted at the time 
about the denial of the Lyttons request, saying it was a 
``close call and a good case could be made that we were 
wrong,'' Grover said.
    Every tribe's situation is different and must be evaluated 
individually. That was what was done in this legislation. But I 
believed then and continue to believe now that it was the fair 
and right thing to do in this particular case to make the 
Lytton Band whole again. Not only do I believe that it was 
appropriate for Congress to have acted with the tribe's behalf, 
I want to be clear that the manner in which Congress approved 
this legislation was entirely appropriate.
    My provision regarding the Lytton Band was added, along 
with numerous other tribal issues, as an amendment to H.R. 
5528, the Omnibus Indian Advancement Act in the full House. All 
of the provisions added were done so with the support of the 
leadership of both the House Resources Committee and this 
committee as a way to move legislation that for one reason or 
another had not passed.
    To make it clear this was a compilation of bills, the 
omnibus title was given to the bill. This is the most 
appropriate way to move legislation near the end of Congress 
that had been bottled up. The bill passed the full House on 
October 26, 2000. H.R. 5528 was referred to the Senate 
Committee on Indian Affairs and passed by the Senate by 
unanimous consent on December 11, 45 days after its referral to 
the Senate and being sent to both respective cloak rooms for 
reviewing and Senate notification.
    Section 819 was identified by the heading Lands taken into 
trust, and at all times contained the names of the tribes and 
the location of the land. Any Senator who questioned or 
objected to any provision had the opportunity to review the 
provision, to withhold consent. Under the unanimous consent 
procedure, no Senator did. Under the provision, Lytton is 
subject to all of the provisions of IGRA including the 
requirement of California law that any compact negotiated 
between the State of California and the Lytton Band is ratified 
by the California legislature. A compact was signed in August 
of 2004 by the Governor and the tribal chair, but has not yet 
been ratified by the legislature.
    I am on record as opposing the size of this first proposed 
compact between the State and the tribe and the revised 
proposed contract. I hope that any final resolution of this 
compact will adhere to the proposal originally presented to me 
by the tribe and the city. That proposal called for a modest 
casino within the parameters of what already exists at the card 
room, not a mega-casino that is now under consideration. I 
think this is important for this committee to understand. This 
was not a controversial action when it was considered for a 
modest casino, with strong support in the community for this 
economic development.
    When it got into the compacting arrangements with 
California's deficit problem, this compact became the object of 
those who wanted to solve the deficit problem on the backs of 
the compacts. So what was proposed as a modest 1,000-slot 
machine casino now became a 5,000-slot machine casino, larger 
than the MGM Grand in Las Vegas.
    I have rejected that. The legislature cut it down to 2,500. 
I still believe that that is too extensive. I do, however, 
believe the Lyttons are still entitled to have a casino on what 
is now their reservation land. I think it is important. Loni 
Hancock, our representative in the State legislature, can 
address the question of where this is in the legislature at 
this time.
    It should be noted, however, that the Lytton Band from the 
very beginning went to unprecedented lengths to consult with 
the local community and the State of California to forge an 
agreement with regard to mitigating potential impacts of the 
new casino and sharing the benefits of the casino with the 
community, but the issue of the compact details is a separate 
matter.
    The issue today is whether or not the tribe has the right 
to these lands and whether Congress acted appropriately in 
conveying the lands to the tribe. In both instances, I think 
the answer is clearly yes. I do not believe that Congress is 
justified in taking away the Lyttons rights that Congress gave. 
Doing so would be a significant breach of trust between 
Congress and the Indians, a trust that has been broken so often 
in our Nation's history. It would also greatly undermine the 
economic development opportunity for an impoverished tribe and 
an impoverished California city. I believe that S. 113 is 
unwarranted and harmful. More importantly, I believe that it 
would be a dangerous precedent.
    Governor Schwarzenegger expressed a similar view when he 
wrote to Senator Feinstein on September 20, 2004 about her 
legislation, that, quote, ``this bill would set a dangerous 
precedent that could damage the trust and faith with the Lytton 
Rancheria Indian Community.'' He added, quote, ``passage of 
this bill will destroy the trust which has been built up with 
the Lyttons and other tribal governments not just in 
California, but throughout the Nation.''
    Indian gaming in California is clearly a complicated matter 
and there are many aspects of the issue to resolve, but using 
the power of Congress to take punitive action against the 
Lytton Band is neither justified nor appropriate.
    Thank you, Mr. Chairman, for your time and the 
consideration of the members of your committee, and my 
opportunity to testify here today on this matter.
    I would be happy to answer any questions that you may have.
    [Prepared statement of Representative Miller appears in 
appendix.]
    The Chairman. A 1,000-slot machine casino is a modest 
gaming operation?
    Mr. Miller. In the context of where California was, where 
Indian gaming was at that time, yes, that was about what was 
taking place in other sites in the State. It is a big State.
    The Chairman. A 1,000-slot machines is a lot of slot 
machines.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, I have no specific questions 
of Congressman Miller. I have read the statements on both sides 
and I think I would like to hear from the other witnesses. I 
appreciate your statement, Congressman Miller.
    Mr. Miller. Thank you.
    Senator Dorgan. You have in great detail laid out your 
position and why legislative action previously was taken and 
also that you believe any further legislative action at this 
point would be punitive. So let us hear from the other 
witnesses today.
    The Chairman. Thank you very much, Congressman Miller. We 
appreciate your coming over today.
    Mr. Miller. Thank you.
    The Chairman. Thank you very much.
    Mr. George Skibine, who is the acting deputy assistant 
secretary for policy and economic development for Indian 
affairs at the Department of the Interior. As always, your 
complete statement will be made part of the record.

    STATEMENT OF GEORGE T. SKIBINE, ACTING DEPUTY ASSISTANT 
   SECRETARY FOR POLICY AND ECONOMIC DEVELOPMENT FOR INDIAN 
              AFFAIRS, DEPARTMENT OF THE INTERIOR

    Mr. Skibine. Thank you, Mr. Chairman, Mr. Vice Chairman. I 
am very pleased to be here to represent the Department of the 
Interior's views on S. 113.
    My statement will be made part of the record. It is a 
fairly short statement and my comments now will be probably 
even shorter.
    Essentially, the department has no objections to Senator 
Feinstein's bill. The bottomline is that we do not object to it 
because we do not believe that it is proper to waive the 
requirements of section 20 of the Indian Gaming Regulatory Act 
for any particular tribe. We believe that section 20 strikes a 
delicate balance between the rights of Indian tribes and the 
rights of local communities and the rights of the State. It has 
been implemented very carefully by the department over the last 
17 years. We believe in that sense that it has worked.
    I think that it is true, as Congressman Miller said, that 
the application to take land in trust and compliance with 
section 20 is a slow process and that the department takes its 
time in weighing the considerations. We want to make sure that 
the local community, especially for off-reservation 
acquisitions, is in support and that their concerns have been 
taken care of. In this particular case, as Senator Feinstein 
said, this would bypass the requirements of section 20 of IGRA.
    To go back briefly to this particular case, as stated 
before, the tribe was terminated and it was subsequently 
restored through stipulation of entry of judgment in 1991 in 
the Scotts Valley litigation. In 1999, the tribe submitted an 
application to take land into trust to the BIA, submitted 
documentation to the regional office, submitted an 
environmental assessment, but that process was overtaken by the 
enactment of the act that is under consideration today.
    I want to clarify a statement that Congressman Miller 
stated. I do not think the tribe was turned down on an 
application to take land into trust. We were in discussion with 
the tribe. I think one of the issues that we were facing is 
whether the tribe would qualify under the restored land for 
restored tribes exception.
    I think we agreed the tribe is a restored tribe, but for 
restored land, I think that is a closer question, certainly. 
Right now, for restored land, I think we look for the tribe to 
have a geographical, traditional and historical nexus to the 
land. So in this particular case, I think that probably would 
be problematic. As a result, this provision was passed that 
short-circuited the process.
    The decision to take the land into trust was made by the 
BIA on January 18, 2001. There were subsequent lawsuits in 
Artichoke Joe's v. Norton over our decision, but the injunction 
was denied in this case. On August 6, 2003, the court ruled in 
that case.
    The land was subsequently taken into trust. On October 9, 
2003 a proclamation of reservation was published in the Federal 
Register and issued on July 13, 2004. That is where we are 
today. We understand, as stated before, that the tribe has 
submitted, is working on a class III gaming compact. We have 
not received that compact because of the issues that were 
raised in the previous testimony. The tribe nevertheless is 
entitled to do class II gaming on the site at this point. If 
the bill is enacted, I think it will probably require the tribe 
to close down its gaming activities for class II gaming because 
essentially they may not satisfy the requirements of section 20 
of IGRA. So the land would not be Indian lands over which a 
tribe has jurisdiction and satisfies the requirements of 
section 20.
    This concludes my testimony at this point. I will be happy 
to answer any questions you may have.
    [Prepared statement of Mr. Skibine appears in appendix.]
    The Chairman. Thank you very much. Are you aware of any 
other cases in which Congress has retroactively deemed land to 
have been taken into trust prior to 1988 in order to relieve a 
tribe of having to comply with IGRA?
    Mr. Skibine. I am not aware of it. That might not mean that 
there is not anything out there, but I am not aware of it.
    The Chairman. You indicated that the applicable section of 
the Omnibus Indian Advancement Act mandated the secretary to 
take the land into trust without consideration of the factors 
in the land acquisition regulations. Can you list some of those 
factors that did not have to be considered?
    Mr. Skibine. Sure. Essentially because it was a mandatory 
acquisition, that means that the decision of the secretary is 
essentially ministerial. That means that the BIA does not have 
to comply with the requirements of the National Environmental 
Policy Act, NEPA, which the tribe was in the process of 
complying with at the time the act was passed. Under our 
regulations, we require consultation with the local community 
that has jurisdiction over the site. This was therefore 
bypassed also.
    In the decisionmaking process, the acquisition of land is 
discretionary, but the Secretary follows the criteria in 
section 151 which are objective criteria. One of the things we 
look at is if there is what is the impact of taking the land 
off the tax rolls.
    Another issue we look at is the need of the tribe for the 
land, what the purpose will be for the acquisition. We also 
look at whether there will be any conflicts in land use and 
whether there will be jurisdictional issues raised by taking 
the land into trust. We also look at whether the bureau is able 
to discharge its responsibility with acquiring new land into 
trust.
    The Chairman. What is the status of the land parcels at 
issue here? Are they currently held in trust for the Lytton 
Rancheria?
    Mr. Skibine. Yes; they are. As Senator Feinstein pointed 
out, the bill does not change that. The land will continue to 
be held in trust. The tribe will have to comply with the 
requirements of section 20 of IGRA because it will be after-
acquired lands.
    The Chairman. Do you consider a 1,000-slot machine casino a 
small casino?
    Mr. Skibine. No; I do not think that, in my experience, a 
1,000-slot machine casino can be considered a small casino. It 
is true that in California there are casinos with 1,000 or more 
slot machines, but I do not think we would consider those small 
operations.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman and Mr. Skibine, the Lytton 
Band's testimony indicates that they believe this would be 
deemed an unconstitutional Fifth Amendment taking. Has the 
Department analyzed the legislation and determined whether it 
would result in a taking and whether that may subject the 
Federal Government to some future liability?
    Mr. Skibine. Yes; we have look at this issue and the 
department has determined that there would not be taking 
implications with this legislation.
    Senator Dorgan. I have no further questions.
    The Chairman. Do you agree with Senator Feinstein's comment 
that even though the Lytton Rancheria has decided to only 
engage in class II gaming, that at any time they could change 
that to a status class III gaming operation?
    Mr. Skibine. That can change if the tribe successfully 
enters into a compact with the State of California and that 
compact is approved by the Secretary of the Interior and notice 
of its approval is published in the Federal Register. Right 
now, apparently there are problems with that, but it could 
happen.
    The Chairman. Thank you very much. Thank you for coming 
this morning. It is nice to see you again.
    Mr. Skibine. Thank you very much, Mr. Chairman.
    The Chairman. Our next panelist is Sharon Brown, who is a 
councilmember of the city of San Pablo, CA. She is accompanied 
by Brock Arner, the city manager of the city of San Pablo; 
Margie Mejia, who is the chairperson of the Lytton Rancheria.
    Assemblywoman Hancock, are you still here? Would you like 
to join the panel and make a comment? You are certainly welcome 
to do so.
    Senator Dorgan. Mr. Chairman, I am supposed to be speaking 
on the floor of the Senate at 10:15 a.m., so I am going to 
depart. I will try to come back before this panel is completed 
if I am able to do that. I have reviewed the testimony, 
however, and appreciate very much the witnesses being here. I 
apologize to you, Mr. Chairman, for having to do that, but the 
schedule on the floor, as you know, is pretty uncertain and I 
am called to go over there at this point.
    The Chairman. Thank you very much, Senator Dorgan.
    Ms. Brown, welcome.

   STATEMENT OF SHARON J. BROWN, COUNCIL MEMBER, CITY OF SAN 
 PABLO, SAN PABLO, CA, ACCOMPANIED BY BROCK ARNER, CITY MANAGER

    Ms. Brown. Good morning. I believe like the rest of the 
world, I have a cold. Hopefully my voice will hold out long 
enough.
    Good morning, my name is Sharon Brown. I have been a San 
Pablo city council member for 21 years and have served as Mayor 
for 4 of those 21 years. I was formerly the chairperson of the 
Metropolitan Transportation Commission and the Association of 
Metropolitan Planning Organizations in Washington, DC.
    In the early 1990's, the city of San Pablo faced 
bankruptcy. Things were so desperate that the city was forced 
to borrow $4 million to meet payroll during that year. Our 
former city manager approached the city council with the idea 
of attracting a card room to San Pablo. After a lot of thought, 
we put the item to a vote for the constituents and it passed 67 
to 33 in a landslide.
    During the campaign, as with other gambling situations, 
there was also opposition to us, talking about prostitution, 
drugs, et cetera. I will tell you that none of that has 
happened. The proposed site was a section 8 mobile home park 
and a bowling alley. In 10 years, the crime rate has actually 
dropped dramatically. The money generated from the card room 
has allowed the city to fund police and recreation programs. We 
have basically repaved the entire city and we have a major 
decrease in crime.
    The card room has also provided new entry-level jobs to 
residents who needed them the most. Many of these people were 
on welfare their entire lives. Revenue from the card room to 
the city decreased dramatically in 1990's due to the Asian 
economy and no smoking rules in California.
    Plus, there is additional development of nearby Indian 
casinos. These Indian casinos are as close as a 90-mile or 90-
minute drive from San Pablo, and at least one is within 25 
miles of the State capital. We are referring to the River Rock 
Casino in Santa Rosa, the Cache Creek Casino in Yolo County and 
the Thunder Valley Casino in Lincoln.
    We also wish to point out that the Indian casino in 
Highland, CA is situated in an urban-suburban area much like 
Casino San Pablo. And please remember, this was a card room at 
the time that the Casino San Pablo came into operation.
    You have heard about the Federal Government wrongfully 
terminating the Lytton Band of Pomo Indians in the 1950's, 
resulting in the transformation of their ancestral land into 
vineyards. In 1988, the Federal courts ordered that the 
Government reverse its decision to terminate the tribe and 
restore the Lytton Band of Pomo Indians to full tribal status.
    Unfortunately, the court also precluded the Lyttons from 
returning to their ancestral lands. I am sure that there is a 
lot of nice wine produced there.
    The tribe has previously been rejected by a number of 
cities closer to their ancestral lands and returned to San 
Pablo only because of the existing card room. In 1999, the city 
council unanimously approved a municipal services agreement 
with the Lytton Band of Pomo Indians acknowledging that type-
III gaming would be coming to the city of San Pablo. Following 
the agreement, both the city and tribe approached Congressman 
George Miller and requested he introduce legislation to allow 
the full Federal Government to take Casino San Pablo into trust 
on behalf of the Lytton Band of Pomo Indians. This was 
extremely cooperative and a full partnership between the city 
and the Indian tribe.
    In the fall of 2000, Congressman Miller introduced the 
enabling legislation which was unanimously supported by the 
city of San Pablo city council because it would bring much-
needed jobs and economic growth to the region which were both 
vitally needed. Congressman Miller's legislation was part of an 
Indians appropriation bill and was published in the Federal 
Register, as is all legislation.
    This bill sat in the committee for 3 months prior to being 
approved by the House of Representatives, the Senate, and being 
signed into law by the President of the United States. This 
bill received considerable media attention while undergoing the 
legislative process. Given this process, it is difficult to 
understand how anyone can describe this as stealth legislation.
    Additionally, after the President signed the bill into law, 
Nevada Senator Harry Reid attempted to repeal the San Pablo 
legislation, which was unsuccessful in that attempt. Senator 
Inouye was a particularly strong advocate in opposing Senator 
Reid's proposed amendment.
    The committee might ask why San Pablo has embraced Indian 
gaming. The reasons are many, but relatively straightforward. 
San Pablo had the lowest per capita income of any community in 
the San Francisco Bay Area. The per capita income of San Pablo 
is far less than the national average, yet housing prices in 
the Bay Area and San Pablo are some of the most expensive in 
the United States.
    Eighteen percent of our residents live below the poverty 
line as defined by the Federal Government. The unemployment 
rate in San Pablo and West County is 175 percent of the county 
average. The city of San Pablo serves more free meals to 
seniors than any other location in Contra Costa County; 44 
percent of our residents are Latino, with the remaining 56 
percent being Lao, Vietnamese, African Americans, Cambodians 
and Anglos; 92 percent of our residents commute outside the 
city for their employment.
    As daunting as these statistics are, many of the 
neighborhoods just outside our city limits in the 
unincorporated county and the city of Richmond are in even 
worse financial situations. Job growth and economic development 
needs are apparent and the Lytton Compact is the best 
opportunity to achieve both.
    There is one uncommissioned study on the casino thus far, 
and it should be viewed as an objective analysis. The 
University of California Graduate School of Planning concluded 
that the proposed compact negotiated by the tribe and the 
Governor of the State of California would provide the residents 
of San Pablo and West County with entry-level jobs, that it 
would increase these employees' earnings by 350 percent. These 
earnings are augmented by health insurance and retirement 
benefits.
    The Lytton Tribe also commissioned an economic analysis of 
the proposed compact. This study forecast the creation of more 
than 3,000 new and permanent jobs at Casino San Pablo if the 
compact is ratified by the legislature. The compact before the 
legislature would allow up to 2,500 slot machines and 200 
gaming tables. The same study estimates that local agencies in 
the State of California would gain $155 million annually to 
mitigate impacts and provide much-needed revenue to the State.
    The same study also forecast more than $600 million in 
economic benefits throughout the region. It is the highest 
amount of revenue-sharing ever offered by a tribe to the State 
and local governments, and for the first time ever includes 
revenues from table games.
    The Chairman. Ms. Brown, you will have to summarize your 
statement. We usually like to have 5 minutes. Please go ahead.
    Ms. Brown. Okay. I was looking for a button or something up 
there.
    We in the city of San Pablo believe the Lytton Band of Pomo 
Indians have been the best neighbor and partner imaginable. The 
Lytton Band, despite being abused by the Federal Government in 
the past, has negotiated agreements with the city of San Pablo 
and the State of California that ensures that their facility 
will have a positive impact on a community most in need.
    It is a sad commentary that the State legislature has not 
approved the proposed compact and a sadder commentary that the 
Senate would consider legislation that would rob the tribes 
sanctioned rights. I urge you to reject S. 113.
    Thank you.
    [Prepared statement of Ms. Brown appears in appendix.]
    The Chairman. Thank you very much.
    Chairperson Mejia, welcome.

STATEMENT OF MARGIE MEJIA, CHAIRPERSON, LYTTON RANCHERIA, SANTA 
                            ROSA, CA

    Ms. Mejia. Thank you. Thank you for inviting me here today 
and thank you in particular, Senator McCain, for the 
understanding and support you have shown to Native Americans.
    My name is Margie Mejia and I am the chairwoman of the 
Lytton Band of Pomo Indians. To understand why we are here 
today, it is important to understand something about the 
history of our tribe. Like most California tribes, we are a 
small group with about 275 members. Like many other California 
tribes, most of our members live in poverty. Many have no or 
inadequate health care. Alcoholism and substance abuse is a 
continuing problem. We have many families living together in 
tiny apartments. Only one of our members is buying a home.
    But until the 1950's, we did have land. That land was in 
Sonoma County and today this is the site of some of the most 
prestigious wineries anywhere in the world. But the reason that 
today there are vineyards on that land instead of our homes is 
a result of actions taken by the Federal Government. But we 
never lost our sense of existence as a community. Many of us 
continue to live together and to take care of tribal members in 
need and we do this even to this day.
    Eventually, we sued the United States and the outcome of 
that suit was that the Federal Government admitted it had 
broken promises it had made in the termination agreement. In 
1991, our tribal status was restored. However, that settlement 
effectively barred us from returning to our tribal lands in the 
Alexander Valley by prohibiting us from operating a gaming 
facility in that area. We had no choice but to agree to this 
condition because otherwise, with little or no resources of our 
own, we would have been forced to fight a protracted legal 
battle against a group of wealthy wineries and the county.
    After restoration, we reestablished our tribal government, 
passed a constitution and elected a tribal council. We also 
began to look for a means out of the relentless poverty many of 
our members face and to rebuild our tribal community. We turned 
to gaming because the government offered that to us as a means 
of economic development and because it generates enough money 
to allow us to get a loan and finance the rebuilding of our 
tribe and our tribal community.
    The 1991 restoration agreement, while barring us from 
operating a gaming facility in Sonoma County, did not foreclose 
our right to find another community that might welcome us as 
partners. We found our road to economic self-reliance in the 
city of San Pablo, where with the help of private investors we 
purchased an existing card club that had been approved by local 
voters in 1994.
    The city and the tribe then negotiated a municipal services 
agreement. At that time, such an agreement was unprecedented in 
California and was the most attractive agreement between local 
interests and an Indian tribe in California.
    But there were other hurdles to come. Although it was the 
Government's wrongful actions which resulted in the loss of our 
land, by the time the Government had admitted that and prepared 
to make good for our loss, the legal landscape for tribes had 
changed. A law had been passed which made it extremely 
difficult for tribes to operate gaming on lands taken into 
trust after 1988 unless Congress made the land eligible. Even 
though it was not our fault that we were in this position, and 
although the law had not been intended for landless tribes, but 
rather tribes with existing reservations, our efforts to seek 
help from the Department of the Interior went nowhere.
    Finally, Congress acted to take that land into trust for us 
as it has in the case of many other tribes in California and 
other States. This was the final option after we had tried 
everything else. Thanks to the efforts of Congressman George 
Miller, that proposal was introduced in legislative form in 
October 2000. On December 27 of that year, the President signed 
that bill into law. There were newspaper articles about this at 
the time and subsequently there were two attempts to repeal 
this proposal. Neither of those met with success.
    Senator Feinstein's legislation represents the third time 
there has been a proposal to take this land from us. We believe 
it would be legally wrong to do that. Section 819 conferred a 
highly valuable property right on our tribe by specifically 
entitling us to acquire land into Federal trust for Indian 
gaming. The Feinstein bill would deprive us of this right to 
conduct gaming on the land and would be a taking under the 
Fifth Amendment of the U.S. Constitution.
    That act of taking land into trust for us in San Pablo was 
not the beginning of this story. It was the end of a very long 
story, a story of poor treatment of our tribe at the hands of 
the Federal Government. That was an act of redress, making good 
the wrong that had been done to us more than 50 years before. 
To have simply said we are sorry and offered up a paper apology 
for the treatment of our tribe would have been wrong. Taking 
that land into trust represented a meaningful act of redress. 
Taking that land out of trust would make that gesture so many 
empty words.
    That is the background to our proposal for a casino project 
on our land in San Pablo. Our initial proposal in 1999 was for 
a modest gaming operation, something on the order of 1,000 slot 
machines. In the proposed compact that we signed with the 
Governor last year, that number was originally 5,000 and was 
revised down to 2,500 machines. Since there has been some 
controversy about the change, let me address that for a moment.
    When we made our initial proposal in 1999, no compact, not 
ours or any other tribe's, provided for any revenue sharing 
with the State of California, nor did these compacts provide 
local and State government opportunities for substantive 
environmental review, mitigation of local impacts, or 
involvement in gaming regulation.
    We stepped up to the plate to do just that, reaching an 
agreement to pay an unprecedented 25 percent of net gaming 
revenues to the State and local government to pay our fair 
share of public services and environmental mitigation. But that 
commitment also required more slot machines than originally 
envisioned.
    We have agreed to two exhaustive environmental impact 
reviews prior to anything being built. These provisions are 
modeled on the California Environmental Quality Act, such as 
the inclusion of project alternatives mitigation and citizen 
participation in the process. But the compact took one further 
step by requiring the tribe to complete agreements on 
mitigation measures with its neighbors in the city of San 
Pablo, the local county and the State Transportation 
Department.
    Over and above our compact obligations, the tribe has spent 
the past months engaged with the community to hear their hopes 
and concerns about our project. As a result, we reduced the 
size and scope of our project to make it a better fit for the 
community, while still offering the creation of more than 6,000 
new jobs. We negotiated and signed that compact with the 
Governor of California. We had the strong support of the city 
of San Pablo where the casino would be located. We believe that 
the proposed compact represented a good deal for all parties.
    Notwithstanding all that, as you know, the California State 
legislature has chosen not to act on the compact. As a result, 
we will now focus on exercising our rights under Federal law. 
We will renovate the interior of the existing building to make 
it more attractive and to offer a wider variety of class II 
gaming activities, including class II electronic bingo games. 
These are not the video lottery terminals. They will fall well 
within the definition of what constitutes class II gaming. We 
do not intend to push the envelope.
    Senator McCain, we did not ask to be in this situation. We 
did not ask the Federal Government to take our name and our 
land, but that happened. Now, decades later, when this 
Government has finally acted to right those wrongs, we believe 
it would be wrong to take away our right to pursue economic 
self-sufficiency, which is effectively what Senator Feinstein's 
bill would do.
    If this body wishes to address various issues associated 
with Indian gaming, so be it. But I respectfully ask you, 
Senators, not to go back and retroactively change the rules for 
us. What this body did in 2000 was to do the right thing. It 
was to make good a wrong the Federal Government had committed 
against our tribe. I ask you to let that act of justice stand.
    Thank you.
    [Prepared statement of Ms. Mejia appears in appendix.]
    The Chairman. Thank you very much.
    Assemblywoman Hancock, welcome.

   STATEMENT OF LONI HANCOCK, ASSEMBLY MEMBER, 14th ASSEMBLY 
                    DISTRICT, SACRAMENTO, CA

    Ms. Hancock. Thank you, Senator McCain.
    My name is Loni Hancock. I serve as an assembly member in 
the California State legislature. My district is in the East 
San Francisco Bay Area and includes the cities of Oakland, 
Berkeley, Richmond, and San Pablo.
    First, let me thank you, Senator McCain, for having this 
hearing today. Senator Feinstein's legislation would require 
advocates of Casino San Pablo to follow the two-step process 
laid out under the Indian Gaming Regulatory Act. I want to 
express my support for Senator Feinstein's legislation.
    Second, I would like to speak about the role of the State 
legislature and the legislative history regarding Casino San 
Pablo. As you know, in order for a tribe to open a casino, they 
must negotiate a gambling compact with the Governor. That 
compact is then subject to ratification by the State 
legislature. The Casino San Pablo proposal came to my attention 
in August of last year when it was submitted to the legislature 
by the Governor as a package of five compacts in the last week 
of the State legislative session when the legislature was 
voting on over 100 bills.
    The compact negotiated between the tribe and the Governor 
authorized 5,000 slot machines in a six-story, 600,000 square 
foot building. To put these figures into perspective, the 
compact would have made Casino San Pablo the third largest slot 
machine operator in the country. Only the two casinos in 
Connecticut would be larger operations.
    In terms of square footage, this casino would have been the 
size of six Wal-Marts combined. It would be built in the middle 
of the already heavily congested San Francisco Bay Area.
    Other provisions in this compact allowed the Governor's 
chief financial officer in his or her sole discretion to 
completely obviate any or all of the local government 
mitigations provided in the compact. After sustained 
legislative opposition, the compact was amended to reduce the 
number of slot machines to 2,500.
    This amended compact created a casino with as many slot 
machines as any major casino on the Las Vegas strip. But also 
included in the revised compact is a provision allowing 
renegotiation of the number of slot machines in 2008. In 
essence, this provision would make it possible for the casino 
to go right back to a request for 5,000 slot machines.
    Given the nature of this revised compact, my colleagues in 
the State legislature made it clear they would not ratify the 
compact.
    The Casino San Pablo proposal touches on many of the 
complex issues surrounding the expansion of Indian gambling in 
California and the expansion of off-reservation casinos. In 
2000, the voters of California passed initiative Proposition 
1A, amending the State constitution to provide economic 
development opportunity by authorizing gambling casinos in 
rural areas and on traditional tribal lands. That was the 
intent of proposition 1A.
    What we have seen since proposition 1A's passage is some 
tribes with ambiguous ancestral titles to a land parcel making 
claims to that land for the sole purpose of operating a casino.
    In the San Francisco Bay Area alone, we face the proposed 
development of up to five casinos within a 15-miles radius by 
tribes who have scant, if any, ancestral connection to those 
lands. California is experiencing a proliferation of proposals 
for Indian gambling casinos that have little to do with self-
sufficiency on tribal lands. These off-reservation casinos in 
reality are being supported by aggressive out-of-State casino 
developers who clearly hope to build casinos in every urban 
area of the State.
    Keep in mind that in California, Nevada-style gambling is 
illegal. Through proposition 1A, it was intended to be legal 
only for Indian tribes on their traditional tribal lands.
    Finally, I would like to talk briefly about the community 
opposition to Casino San Pablo. Polls conducted by KPIX, our 
local TV station, showed that 57 percent of the respondents 
opposed the casino. I personally sent a survey to every 
household with a registered voter in my Assembly district.
    The returned survey showed overwhelming opposition. Survey 
results indicated district-wide, 91 percent opposition to the 
casino, and my staff broke down the results by city, and even 
within the city of San Pablo, where the casino would be located 
and where people had been promised jobs and revenues for the 
city budget, over 64 percent of the returned surveys opposed 
the casino.
    Cities like Albany and Berkeley in the surrounding 
community who will experience the negative impacts of increased 
traffic, crime and gambling addiction have taken positions 
against the proposed casino. Other cities are considering 
similar resolutions, and today the local county board of 
supervisors will be considering a resolution against urban 
gambling and against urban casinos.
    Mr. Chairman, I have thousands of letters, e-mails, surveys 
that say that Casino San Pablo is a bad economic development 
strategy for our community and our State. You have heard that 
the Lytton Band of Pomo Indians no longer intends to build a 
Las Vegas-style casino. The proponents have said that they will 
operate only class II electronic bingo machines, but the 2,500 
slot machine compact is still on the table.
    Recently, a letter sent by the tribe to members of the 
State legislature states that the tribe remains confident that 
this or a future legislature will eventually recognize the 
benefits of the compact negotiated with the Governor. This is a 
2,500-slot machine casino with the ability to negotiate for 
even more slot machines when the environment is more 
politically favorable for them to do so.
    So in the final analysis, I believe that the legislation 
authored by Senator Feinstein to remove the backdating, and 
without that legislation the Lytton Tribe will continue to seek 
a massive gambling casino at Casino San Pablo. This entrance of 
tribal casinos on non-ancestral land in densely built urban 
areas would set a precedent for authorizing off-reservation 
gambling casinos in California and in every State where tribal 
gambling is permitted.
    Thank you again, Mr. Chairman, for holding this hearing. I 
respectfully ask the committee to act in support of Senator 
Feinstein's legislation.
    [Prepared statement of Ms. Hancock appears in appendix.]
    The Chairman. Thank you very much.
    Chairman Mark Macarro, Chairman of the Pechanga Band of 
Luiseno Indians. Welcome.

 STATEMENT OF MARK MACARRO, CHAIRMAN, PECHANGA BAND OF LUISENO 
                            INDIANS

    Mr. Macarro. Good morning, Mr. Chairman. Thank you for the 
opportunity to testify regarding S. 113, a bill to modify the 
date as of which certain tribal lands of the Lytton Rancheria 
of California is deemed to be held in trust.
    My name is Mark Macarro. I am the duly elected chairman of 
the Pechanga Band of Luiseno Mission Indians. I have been asked 
to discuss the Pechanga Tribe's position with regard to S. 113.
    The Chairman. What is your geographic position as compared 
with Councilwoman Mejia's tribe?
    Mr. Macarro. The Lytton Band is in Northern California in 
the Bay Area. We are in Southern California, about 60 miles 
north of San Diego, 20 miles inland of Camp Pendleton.
    The Chairman. And does your tribe engage in gaming?
    Mr. Macarro. We do.
    The Chairman. How big a casino do you have?
    Mr. Macarro. We have a 522-room hotel and 2,000 slot 
machines.
    The Chairman. Please proceed. Thank you.
    Mr. Macarro. Thank you.
    The Pechanga believe that each and every federally 
recognized tribe is a sovereign and in its own right enjoys all 
the rights and privileges that flow from sovereignty, including 
the right to pursue economic development opportunities which 
improve the quality of life for all tribal members. However, it 
is our sincere belief that all Indian tribes also have a 
responsibility to the larger community and that the specific 
instance of the backdating of the fee-to-trust acquisition of 
the Lytton Rancheria is contrary to the best interests of all 
of Indian country.
    The Pechanga Tribe supports S. 113 for two reasons. First, 
we believe that the Lytton fee-to-trust acquisition should 
follow the same procedure that all other tribes must follow to 
authorize gaming on what are termed after-acquired trust lands. 
While the process is not perfect, it allows tribes, States and 
local communities to have input and a chance to participate in 
the process, including the ability to resolve differences 
before decisions are made. The manner in which this acquisition 
was placed into trust deprived those communities who are most 
affected by the acquisition a chance to address important 
issues before the land was placed into trust.
    The other reason we support this legislation is that it 
will reverse an action which violates a promise that all 
California Indian tribes made to the citizens of California 
when propositions 5 and 1A were considered and approved. During 
the time those propositions were considered, tribes in 
California pledged that the passage of those propositions would 
not result in the proliferation of urban gaming, but would be 
confined to a tribe's existing reservation lands, the vast 
majority of which are not located in urban areas.
    The legislation which directed the Lytton land acquisition 
to be placed into trust status violated that public policy 
promise to the citizens of California and denied the citizens 
affected by the acquisition to play a part in the process which 
determines whether land should be placed into trust status.
    We believe S. 113, by providing that the trust acquisition 
of the Lytton Rancheria, while remaining in trust status, is 
considered to be placed in trust as of its actual date of 
acquisition. It levels the playing field. It requires the 
Lytton Rancheria to deal with the local community and the 
Governor before it may operate gaming on the parcel, or it must 
apply to the BIA before the land can be declared meeting one of 
the exceptions to the prohibition on gaming on lands acquired 
after October 17, 1988.
    Both processes provide for more detailed, thoughtful 
consideration on the merits of the application before gaming 
can be conducted on those lands.
    This concludes my testimony. Again, I would like to thank 
you for the opportunity to provide our views on S. 113. I would 
be happy to answer any questions you may have.
    [Prepared statement of Mr. Macarro appears in appendix.]
    The Chairman. Thank you very much.
    Ms. Mejia, how do you respond to Chairman Macarro's comment 
that a commitment was made at the time of the passage of the 
propositions 5 and 1A that there would not be an expansion of 
Indian gaming in urban areas?
    Ms. Mejia. As I stated in my testimony, back in 1999, the 
compacts that were signed with the State of California and 62 
tribes were signed September 9 of 1999. We had already 
negotiated, were in negotiations with the city of San Pablo on 
our municipal services agreement. We were in every paper and, 
you know, we were going into an existing facility in a 
community that had already passed a referendum for gaming. We 
were not hiding anything.
    The Chairman. Why was it that your tribe was not included 
in this ballot proposition which gave numerous tribes the 
opportunity to engage in a compact with the State?
    Ms. Mejia. Governor Davis said that we could not enter into 
that agreement because we did not have the land in trust. When 
I attended the compact negotiations with the other tribes of 
California and asked them to put language in there that would 
apply to us, they said no, that they needed to move forward. 
They had to act in their tribe's best interests and that is 
what they did.
    The Chairman. Ms. Brown, your view of the public support 
for this enterprise seems to vary rather dramatically from 
Assemblywoman Hancock's view of the support for this 
enterprise.
    Ms. Brown. We had 2,000 petitions of support in the last 
few months.
    The Chairman. You have to move the microphone closer.
    Ms. Brown. I am sorry.
    We had 2,000 petitions of support in the last few months, 
which have been submitted.
    The Chairman. Is the tribe currently operating a casino at 
the San Pablo site?
    Ms. Mejia. The tribe is currently operating a class II 
facility.
    The Chairman. And how many members of our tribe are 
employed there?
    Ms. Mejia. Actually, right now, none, because we have not 
been able to. We have been working toward doing this and the 
card club is not generating revenue for teaching job skills and 
addressing those issues so that they can participate in 
employment there. Right now, it is just operating as it was 
before. Hopefully with the move to adding the class II 
machines, we will generate revenue. We will bring in tribal 
members to work there.
    The Chairman. Assemblywoman Hancock, do you have objection 
that class II gaming be conducted?
    Ms. Hancock. I think that it would be a good idea if it 
were part of the two-step negotiations that I understand are 
required under IGRA. Certainly, class II gaming, although my 
understanding, again, is that the electronic bingo machines 
look and feel very much like slot machines and that there would 
be obviously an impact on the community from that.
    I think it would be good to have those impacts discussed, 
which is one of the reasons that I support Senator Feinstein's 
bill. But in addition, the fact is that right now the 2,500-
slot machine compact is still before the California 
legislature. It can be brought forward at any time that the 
proponents believe they can get the votes. I think it 
illustrates the enormous pressures and problems that we are 
facing in California around off-reservation gambling.
    So it seems to me that simply as a fairness measure, there 
ought to be the community discussion around the traffic impacts 
and the social impacts of class II gambling in a very densely 
built-up region. The city of San Pablo is actually a city of 
30,000 people, totally surrounded by the city of Richmond, also 
a very poor city, that will benefit in no way from this 
compact.
    The Chairman. Go ahead, sir.
    Mr. Arner. Senator, you have asked a question about size of 
casinos and the number of slots previously. I would like to 
respond to that. I am Brock Arner, the city manager.
    Thunder Valley Casino within 48 miles of the capital of the 
State of California has 2,700 slot machines. Cache Creek has 
2,500.
    The Chairman. Not much different from the original proposal 
of 2,500.
    Mr. Arner. No, sir; it is not. What I was trying to show 
was the relative request of the Lytton Band of the Pomo Indians 
in this regard.
    I would also like to point out that no local city other 
than Albany has opposed. None of our neighbors have opposed 
this proposal by the Lyttons. The 3,000 jobs that would be 
generated by this proposal will greatly benefit the residents 
of the city of Richmond who are even poorer than the residents 
of the citizens of San Pablo. Finally, $150 million would be 
made available to State and local governments to offset and 
mitigate issues like traffic raised by this proposal. That is 
in the compact negotiated by the Governor with Tribal Chair 
Mejia.
    I am almost finished. I am sorry for taking your time.
    The Chairman. Go ahead.
    Mr. Arner. We have also received support from the Richmond 
Chamber of Commerce, the Rodeo Chamber of Commerce, the San 
Pablo Chamber of Commerce, and a variety of other clubs, 
including the Rotary Club in San Pablo, supporting the job 
creation and the economic development in the poorest area of 
the Bay Area as a result of Casino San Pablo and the proposed 
type III gaming.
    The Chairman. Your survey shows that 3,000 jobs, and how 
much money would be created by this?
    Mr. Arner. The University of California Graduate School 
indicates that the jobs are attainable by the folks that we 
serve. Those 3,000 jobs are identified an economic analysis 
paid for by the tribe.
    The Chairman. 3,000 jobs and how much money?
    Mr. Arner. They estimate $150 million annually to be 
divided between the State of California, the county of Contra 
Costa, the city of San Pablo, and CALTRANS.
    The Chairman. Chairman Macarro, how many slot machines are 
in your operation?
    Mr. Macarro. We have 2,000.
    The Chairman. Have you created anywhere near 3,000 jobs 
associated with that?
    Mr. Macarro. Actually, yes. We have about 5,000 employees. 
We are the second-largest private employer in Riverside County.
    The Chairman. It is interesting to me that many times where 
gaming operations take place, there is very little impact on 
the surrounding community. Has that been your experience, 
Assemblywoman Hancock?
    Ms. Hancock. Well, this is really my first experience with 
urban gambling. I have learned more about gambling than I ever 
thought I would, since last August, Senator McCain.
    The Chairman. During March Madness, it is appropriate.
    Ms. Hancock. Really. [Laughter.]
    Ms. Hancock. One of the things I have learned is that there 
are a number of studies indicating other things. A study that 
was commissioned by a coalition of card rooms, from Professor 
William Thompson at the University of Nevada, estimated that 
the Bay Area economy would lose $138 million a year as a result 
of the casino. It is based very much on an analysis that he 
calls the difference between destination gambling and grocery 
store gambling.
    Destination gambling, meaning when people fly to a place 
like Las Vegas, they are on vacation. They know what they can 
afford to lose and spend. They leave their money in Las Vegas 
and they go home. If you do not have a destination, what you 
have is grocery store gambling where he estimates 80 to 90 
percent of the customers would come from the adjacent area, a 
very poor area.
    This is where somebody is driving by, they decide to stop. 
They just got their paycheck and pull the handle or press the 
button a few times, and they leave without the lunch money for 
the kids. They leave without the money for clothes or rent. And 
this is money that would go back into the local economy, but 
instead it goes out, 30 percent or so, to the investors who are 
typically out of State gambling casino operators and the rest 
in various places.
    So that the economic impact on the communities may be to 
move money around, but it actually can be a very negative 
economic impact.
    The Chairman. Chairwoman Mejia, would you like to make any 
additional comments?
    Ms. Mejia. No; I would just urge the committee, Senator 
McCain, yourself, to really look at the impact this is going to 
have on my people.
    The Chairman. Thank you.
    Ms. Brown.
    Ms. Brown. Basically, the same as Margie Mejia, is that the 
concerns we have in San Pablo is the impacts for San Pablo.
    The Chairman. Thank you very much. This hearing is 
adjourned.
    [Whereupon, at 10:48 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]


=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


  Prepared Statement of Hon. George Miller, U.S. Representative from 
                               California

    Mr. Chairman and members of the committee, thank you for the 
opportunity to testify today.
    And Senator Feinstein, it is good to be with you. While you and I 
do not agree on this particular matter today it is always good to work 
with you on issues that affect the State of California. I appreciate 
what you do for us.
    Mr. Chairman, with your permission I would like to submit my 
written statement for the record.
    I would also like to recognize several constituents and local 
representatives who will testify later today.
    Assemblywoman Loni Hancock is a strong advocate for her district 
and. I appreciate her being here.
    And Mayor Sharon Brown and City Manager Brock Amer of the city of 
San Pablo are here. They are working very hard to stimulate economic 
development in their city and I appreciate their efforts on behalf of 
the resident of San Pablo.
    Today's hearing concerns the Lytton Band of Pomo Indians and the 
city of San Pablo in my district and their effort to work together to 
meet mutual goals of desperately needed economic development. I support 
their efforts.
    My involvement with this matter dates back to 1999 and 2000 when I 
was approached by the city to discuss its interest in working with the 
Lytton Band to help them acquire an existing card room in San Pablo for 
the purposes of renovating it and building a modest sized casino.
    The tribe made a good faith effort to work through the Department 
of the Interior to win the right to acquire this land for the purposes 
of gaming under the Indian Gaming Regulatory Act [IGRA] but due to 
special circumstances affecting the tribe, it is my understanding that 
the tribe was told by the Department that they would be turned down.
    After much discussion and a detailed review of the circumstances, I 
agreed to help the city and the tribe. I supported their project for 
several reasons:
  <bullet> \\\\\\the local community, including the police department,. 
        supported the project;
  <bullet> \\\\\\the city stood to make significant economic 
        development gains from the project;
  <bullet> \\\\\\the tribe had a clear need and a legitimate right to 
        pursue lands for the purposes of economic development and made 
        a good faith effort to work through the Department of the 
        Interior to do so;
  <bullet> \\\\\\I have a long standing history of supporting the 
        sovereign rights of Indian tribes.
    The issue of whether or not American Indians should be involved in 
gaming is not at issue here. There are opponents of gambling for many 
reasons, some personal, some moral, some simply competitive. And of 
course there are many proponents of gaming. There are card rooms 
throughout the Bay Area, an extensive lottery program, and the 
California constitution allows for Indian gaming. Personally, I am 
neither a proponent nor opponent of gaming per se. I am, however, a 
strong defender of economic development and of Indian sovereignty.
    As you will hear in greater detail later today from the Lytton's 
tribal chairwoman, Marge Mejia, the Lytton Band was wrongfully 
terminated in the 1960's. A Federal court restored its tribal status in 
1991. The Lyttons are a poor people, many of whom are homeless. The 
tribe is concerned about preserving its tribal heritage and providing 
economic means for its members.
    The city of San Pablo and the Lyttons have much in common.
    San Pablo is one of the poorest cities in the Bay Area. A small 
city with little economic activity, it has a poverty rate of 18 
percent--twice that of the entire Bay Area and more than twice that of 
Contra Costa County. Its ``unemployment rate is higher than that of the 
Bay Area and the county. More than 90 percent of the city's residents 
work outside of the city, because there are just not enough jobs 
created within the city.
    The key question before the committee is whether it was appropriate 
for the Congress to have passed section 819 of the Omnibus Indian 
Advancement Act in 2000 on behalf of the Lytton Band. I believe that it 
was appropriate and that the provision should stand as written.
    As you know, the U.S. Constitution gives Congress plenary authority 
over Indian tribes to pass laws for their benefit. Congress is fully 
within its rights to pass legislation directing the Secretary of the 
Interior to place lands into trust for a particular tribe and does so 
on a regular basis.
    In the 108th Congress, at least 10 bills became law that placed 
lands into trust for various reasons to benefit various Indian tribes. 
This may happen for any number of reasons that Congress determines is 
prudent. It may be as part of a settlement agreement of a land claim, 
or in the instance of the Pechanga Indian Tribe, who are scheduled be 
testify later, the desire to protect certain important lands from 
possible desecration.
    Last Congress, we even took lands right out of a national park and 
had it placed in trust for one tribe. In the Gila River water 
settlement law we required an act of Congress occur to bring some lands 
into trust for that tribe.
    In most cases, including the ones I mention here, the tribe 
attempts to go through the BIA process, becomes frustrated for one 
reason or another, and comes to Congress to plead its case. In fact, 
the highly touted bill that the Lytton provision was--in also included 
14 other provisions to take lands into trust for Indian tribes, 
including one provision that held the land be considered in trust as of 
1909.
    The Lyttons had a special circumstance that I believe distinguished 
them from most other tribes in California and that necessitated 
congressional action.
    The 1991 Federal court settlement that restored Lyttons' tribal 
status and that of numerous other California tribes included one 
unusual provision that pertained only to the Lyttons.
    The court order restoring the Lyttons' tribal status contained a 
unique limitation that precluded the Secretary of the Interior from 
taking land in Sonoma County the Lytton's ancestral lands--into trust 
for the benefit of the Lytton Band for any use that was inconsistent 
with the Sonoma County General Plan. In effect, the limitation denied 
Lytton any right to use its ancestral land for gaming.
    The order however did not put any restrictions on the ability of 
Lytton to pursue other lands for gaming or other activities.
    This limitation created a special circumstance when the Lyttons 
appealed to the Department of the Interior for an exception under the 
Indian Gaming Regulatory Act for permission to have lands put into 
trust and to be allowed to conduct gaming.
    The lands that the tribe sought were not their ancestral lands, nor 
contiguous with its ancestral lands. It is my understanding that the 
Bureau of Indian Affairs [BIA] denied the tribe this exception under 
IGRA because of this land issue. And yet, as I explained, the court 
settlement forbade the tribe from using their ancestral lands.
    The Lyttons are the only tribe in California--and perhaps the only 
tribe in the United States--that, as a condition of the restoration of 
its tribal status, was expressly deprived of the opportunity to 
exercise rights under the Indian Gaming Regulatory Act on its ancestral 
land.
    I do not believe that existing law anticipated this unusual 
circumstance and therefore Congress, which has the authority to 
intervene in these matters, appropriately remedied this situation.
    This is what the issue boils down to. Through no fault of its own, 
the Lytton Tribe was illegally stripped of its status as a federally 
recognized Indian tribe and denied its rights for decades until it was 
restored to its proper status by our judicial system. Had the tribe's 
status never been illegally terminated, there would have been no 
question as to the Lytton's ability to operate gaming on lands within 
its ancestral area.
    I thought that the BIA would accept the land under the IGRA 
exceptions for restored tribes, but was told it would not. I believed 
that was a mistake, and even then Assistant Secretary for Indian 
Affairs Kevin Gover was quoted at the time about the denial of Lytton's 
request that ``it was a close call. A good case could be made that we 
were wrong Gover said.
    Every tribe's situation is different and must be evaluated 
individually. But I believed then, and continue to believe now, that it 
was the fair and right thing to do in this particular case to make the 
Lytton Band whole again.
    Not only do I believe that it was appropriate for Congress to have 
acted on the tribe's behalf, but I want to be clear that the manner in 
which Congress approved this legislation was entirely appropriate.
    My Provision regarding the Lytton Band was added, along with 
numerous other tribal issues, as an amendment to H.R. 5528, the Omnibus 
Indian Advancement Act,'' in the full House.
    All the provisions added were done so with the support of the 
leadership of both the House Resources Committee and this committee as 
a way to move some legislation that for whatever reason had not passed. 
To make it clear this was a compilation of bills, the ``omnibus'' title 
was given to the bill. This is a most appropriate way to move 
legislation near the end of a Congress that has been bottled up. The 
bill passed the full House on October 26, 2000.
    H.R. 5528 was referred to the Senate Committee on Indian Affairs 
and passed in the Senate by unanimous consent on December 11, 2000--45 
days after its referral to the Senate and its being sent to both 
respective cloakrooms for viewing and Senate notification.
    Section 819 was identified by the heading ``Land to be Taken Into 
Trust'' and, at all times, contained the name of the tribe and location 
of the land. Any Senator who questioned or objected to any provision 
had the opportunity to review the provision and to withhold consent 
under the unanimous consent procedure. No Senator did so.
    Under the provision, Lytton is subject to all of the provisions of 
IGRA, including the requirement under California law that any compact 
negotiated between the State of California and the Lytton Band be 
ratified by the California legislature.
    A compact was signed in August 2004, by the Governor and the Tribal 
Chair, but it has not yet been ratified by the legislature.
    I am on record as opposing both the size of the first proposed 
compact between the State and the tribe and the revised proposed 
compact. I hope that any final resolution on the compact will adhere to 
the proposal originally presented to me by the tribe and the City. That 
proposal called for a modest casino within the parameters of what 
already exists at the card room, not a mega casino as is now under 
consideration.
    It should be noted, however, that the Lytton Band from the very 
beginning went to unprecedented lengths to consult with the local 
community and the State of California to forge an agreement with regard 
to mitigating potential impacts of a new casino and sharing the 
benefits of the casino with the community.
    But the issue of the compact details is a separate matter.
    The issue today is whether the tribe has the right to these lands 
and whether Congress acted appropriately in conveying the lands to the 
tribe. In both instances, the answer clearly is yes.
    I do not believe Congress is justified in taking away from the 
Lytton's the rights that Congress gave to it. Doing so would be a 
significant breach of trust between Congress and the Indians, a trust 
that has been broken so often in our Nation's history. And it would 
also greatly undermine the economic development opportunity of an 
impoverished tribe and an impoverished California city.
    I believe that S. 113 is unwarranted and harmful but more 
importantly I believe that it would be a dangerous precedent.
    Governor Schwarzenegger expressed a similar view when he wrote to 
Sen. Feinstein on September 20, 2004 about her legislation that, ``This 
bill would set a dangerous precedent that could damage trust and faith 
with the Lytton Rancheria Indian community.'' He added, ``Passage of 
[this bill] will destroy the trust which has been built with the Lytton 
and other tribal governments, not just in California but throughout the 
Nation.''
    Indian gaming in California is clearly a complicated matter, and 
there are many aspects of the issue to resolve. But using the power of 
Congress to take punitive action against the Lytton Band is neither 
justified nor appropriate.
    Thank you again Mr. Chairman and members of the Committee for the 
opportunity to testify today.
                                 ______
                                 

   Prepared Statement of Loni Hancock, Assemblymember, 14th Assembly 
                          District California

    Good morning Chairman McCain, Senator Dorgan, members of the 
committee. My name is Loni Hancock and I serve as an assemblymember in 
the California State Legislature. My district includes most of the East 
San Francisco Bay Area including the cities of Oakland, Berkeley, 
Richmond, and San Pablo.
    Let me first say thank you for having this hearing today on S. 113 
authored by Senator Feinstein. This legislation requires the proponents 
of Casino San Pablo to follow the process set out under the Indian 
Gaming Regulatory Act. So let me first clearly express my support for 
Senator Feinstein's legislation.
    Second, I would like to speak about the role of the State 
Legislature and the legislative history regarding Casino San Pablo. As 
you know, in order for a tribe to open a casino they must negotiate a 
gambling Compact with the Governor of that State. That Compact, 
negotiated between the tribe and the Governor, is subject to 
legislative ratification by the State Legislature.
    The Casino San Pablo proposal came to my attention in August of 
last year. The Compact was submitted to the Legislature by the Governor 
as part of a package of 5 compacts in the last week of the legislative 
session when the Legislature was voting on roughly 800 bills.
    The Compact--negotiated between the tribe and the Governor--
authorized 5,000 slot machines and a 6-story, 600,000-square-foot 
facility. To put these figures into perspective, the Compact would have 
made Casino San Pablo the third largest slot machine operator in the 
country. Only the two casinos in Connecticut have larger operations.
    In terms of square footage this casino would have been the size of 
six Wall Marts combined. Keep in mind this casino would be built in the 
middle of the already heavily congested San Francisco Bay Area. Other 
provisions in this Compact allowed the Governor's chief financial 
officer in his or her sole discretion to completely obviate any or all 
of the local government mitigation provided for in the Compact.
    After sustained legislative opposition, the Compact was amended to 
reduce the number of slot machines to 2,500. This amended Compact 
created a casino with as many slot machines as any casino on the Las 
Vegas strip. Also included in the revised Compact was a provision 
allowing renegotiation of the number of slot machines in 2008. In 
essence, this provision made it possible for the casino to go right 
back to 5,000 slot machines.
    Given the nature of this revised Compact, my colleagues in the 
California Legislature made it clear they would not ratify the Compact 
or authorize an expansion of Las Vegas style gambling into one of the 
State's most densely populated urban areas.
    The Casino San Pablo proposal touches on many of the complex issues 
surrounding the expansion of Indian gambling in California and the 
expansion of off-reservation casinos. In 2000, the voters of California 
passed a Statewide initiative--proposition 1A. Proposition 1A amended 
the State Constitution to provide for economic development by 
authorizing casinos in rural areas and on traditional ancestral tribal 
lands. This was the intent of proposition 1A.
    What we have seen since proposition 1A's passage is some tribes, 
with ambiguous ancestral ties to a land parcel, making claims to that 
land for the sole purpose of opening a casino. In the San Francisco Bay 
Area alone we face the proposed development of up 5 casinos within a 
15-mile radius by tribes who have scant, if any, ancestral connection 
to those lands. In the case of the Lytton Tribe at Casino San Pablo, 
the casino's location is 50 miles from Sonoma County--the traditional 
ancestral territory of their tribe. In another case, the Koi Nation 
Tribe is proposing to build a casino adjacent to the Oakland 
International Airport. This casino proposal located in Oakland is 
nearly 150 miles from the tribe's traditional lands in Lake County.
    California is experiencing a proliferation of proposals for Indian 
gambling casinos that have little to do with self sufficiency on tribal 
lands. These ``off reservation'' casinos are, in reality, being 
supported by aggressive out-of-state casino developers and their 
lobbyists who clearly hope to build casinos in every urban area of the 
State. Keep in mind that in California, Las Vegas style gambling is 
illegal. Las Vegas style gambling was only intended to be legal only 
for Indian tribes on their traditional ancestral land.
    Finally, I would like to talk briefly about the community 
opposition to Casino San Pablo. Polls conducted by KPIX our local TV 
station showed that 57 percent of the respondents oppose the casino. I 
personally sent out a survey to every household with a registered voter 
in my Assembly District, which contains 156,000 voters and the returned 
surveys showed overwhelming opposition. The survey results indicated 
that 91 percent of my district is against the casino proposal. My staff 
has broken down the results of the survey by city. Even within the city 
of San Pablo--where the casino would be located--and where the city has 
been promised jobs and revenues for the cities budget, 64 percent of 
the returned surveys opposed the casino. Cities such as Albany and 
Berkeley who are in the surrounding community and will experience the 
negative impacts of increased traffic, crime, blight and gambling 
addiction have taken positions against the proposed casino. In 
addition, other cities are considering similar resolutions against the 
Casino and against expanding urban gambling in general. In fact, 
tonight, the local county Board of Supervisors, in which Casino San 
Pablo resides, will be approving a resolution against urban gambling 
and urban casinos. Mr. Chairman and members, I have thousands of 
letters, e-mails and surveys that say that Casino San Pablo is a bad 
economic development strategy for our community and for our State.
    You will hear from the proponents of the Casino that they no longer 
intend to build a ``Las Vegas'' style casino, that they no longer 
intend to build entertainment venues, or that the casino now will not 
feature slot machines. The proponents will say that they will operate 
only class II gaming machines that is, electronic bingo machines.
    But the one thing we have learned from this experience is that once 
land is placed into trust everything can change.
    In a letter to the BIA in 1999, Mrs. Mejia the chairwoman of the 
tribe told the BIA that ``No other changes to the physical 
configuration or internal operation of the existing facility are 
proposed.'' The letter goes on to say ``Based upon the Band's review of 
the physical constraints of the Facility, the Band believes the 
capacity of 1,200 to 1,500 gaming positions [this means slot machines 
and poker tables]--will not increase.
    After these statements were made to the BIA, the tribe negotiated 
with the Governor a 5,000-slot machine casino and 600,000 square foot 
facility--and they said, no other changes to the physical facility 
would be made!
    Recently a letter sent by the tribe to members of the State 
Legislature states that ``. . . the tribe remains confident that this 
or a future legislature will eventually recognize the benefits . . . 
that the Compact we negotiated in good faith offers.'' In other words, 
the supporters of the casino intend to continue to put forward this 
Compact for a 2,500-slot machine casino and massive gambling complex 
with the ability to negotiate for even more slot machines when the 
environment is more politically favorable for them to do so.
    In the final analysis, it is my belief that without the legislation 
authored by Senator Feinstein, the Lytton Tribe will be able to open a 
massive casino at Casino San Pablo. This would be the first urban Las 
Vegas style casino that was never intended by the voters of the State 
of California, and is a direct violation of the Federal regulations 
outlined in the Indian Gaming Regulatory Act. The entrance of tribal 
casinos on non-ancestral land--such as Casino San Pablo--in densely 
built urban areas would set a precedent for authorizing off reservation 
gambling casinos in California and every state where tribal gambling is 
permitted.
    Thank you again, Mr. Chairman, for holding this hearing. I 
respectfully urge the committee to act in support on Senator 
Feinstein's legislation a soon as possible.
                                 ______
                                 

Prepared Statement of Mark Macarro, Chairman, Pechanga Band of Luiseno 
                            Mission Indians

    Good morning, Mr. Chairman, Mr. Vice Chairman and members of the 
committee. Thank you for the opportunity to testify regarding S. 113, a 
bill ``to modify the date as of which certain tribal land of the Lytton 
Rancheria of California is deemed to be held in trust''.
    My name is Mark Macarro, and I am the chairman of the Pechanga Band 
of Luiseno Mission Indians. I've been asked to discuss the Pechanga 
Tribe's position with regard to S. 113.
    The Pechanga believe that each and every federally recognized tribe 
is a sovereign in its own right and enjoys all the rights and 
privileges that flow from sovereignty, including the right to pursue 
economic development opportunities which improve the quality of life 
for all tribal members. However it is our sincere belief that all 
Indian tribes also have a responsibility to the larger community, and 
that the specific instance of the backdating of the fee to trust 
acquisition of the Lytton Rancheria is contrary to the best interests 
of all Indian country.
    The Pechanga Tribe supports S. 113 for two reasons.
    First, we believe that the Lytton fee to trust acquisition should 
follow the same procedure that all other tribes must follow to 
authorize gaming on what are termed ``after-acquired'' trust lands. 
While the process is not perfect, it allows tribes, States, and local 
communities to have input and a chance to participate in the process, 
including the ability to resolve differences, before a decision is 
made. The manner in which this acquisition was placed into trust 
deprived those communities who are most affected by the acquisition a 
chance to address important issues before the land was placed in trust.
    The other reason we support this legislation is that it will 
reverse an action which violates a promise that all California Indian 
tribes made to the citizens of California when propositions 5 and 1A 
were considered and approved. During the time those propositions were 
considered, tribes in California pledged that the passage of those 
propositions would not result in the proliferation of urban gaming, but 
would be confined to a tribe's existing reservation lands, the vast 
majority of which are not located in urban areas.
    The legislation which directed the Lytton land acquisition to be 
placed into trust status violated that promise to the citizens of 
California and denied the citizens affected by the acquisition to play 
a part in the process which determines whether land should be placed 
into trust status.
    We believe S. 113, by providing that the trust acquisition of the 
Lytton Rancheria, while remaining in trust status, is considered to be 
placed in trust as of its actual date of acquisition, levels the 
playing field. It requires the Lytton Rancheria to deal with the local 
community and the Governor before it may operate gaming on the parcel, 
or it must apply to the BIA before the land can be declared meeting one 
of the exceptions to the prohibition on gaining on lands acquired after 
October 17, 1988. Both processes provide for more detailed, thoughtful 
consideration on the merits of the application before gaming can be 
conducted on those lands.
    This concludes my testimony. Again, I would like to thank you for 
the opportunity to provide our views on S. 113. 1 would be happy to 
answer any questions you may have.
                                 ______
                                 

 Prepared Statement of Margie Mejia, Tribal Chairwoman, Lytton Band of 
                              Pomo Indians

    Thank you for inviting us today, and thank you in particular, 
Senator McCain, for the understanding and support you've shown for 
Native Americans.
    My name is Margie Mejia, and I am the chairwoman of the Lytton Band 
of Pomo Indians. To understand why we are here today, it's important to 
understand something about the history of our tribe.
    Like most California tribes, we are a small group, with about 275 
members. Like many other California tribes, most of our members live in 
poverty. Many have no or inadequate health care. Alcoholism and 
substance abuse is a continuing problem. Living as we do in the San 
Francisco Bay Area, where housing is very expensive--we have many 
families living together in tiny apartments. Only one of our member's 
owns a home.
    But until the 1950's, we did have land. That land was in Sonoma 
County, and today this is the site of some of the most prestigious 
wineries anywhere in the world. But the reason that today there are 
vineyards on that land, instead of our homes--is the result of actions 
taken by the Federal Government.
    In the 1950's, the Government decided to ``terminate'' small Native 
American bands like ours. The Government gave tribal members individual 
titles to land and houses, in exchange for a promise to provide needed 
infrastructure--water, electricity, roads, and sewage. The tribe was 
dissolved as a legal entity. But the Government did not fulfill any of 
its promises to make improvements on our land, and the Government gave 
those titles to individuals with no experience of managing either 
property or money.
    The result was that we lost both our legal identity and our land, 
which in fact, was the intended outcome. [As a historical aside, the 
same Government official who presided over this policy at the BIA, had 
also been in charge of the Government's policy of interning Japanese-
Americans during WWII.]
    But we never lost our existence as a community. Many of us 
continued to live together, and to take care of tribal members in need, 
as we do to this day. Eventually, we sued the United States, and the 
outcome of that suit was that the Federal Government admitted it had 
broken its promises during termination. In 1991, our tribal status was 
restored. However, that settlement effectively barred us from returning 
to our tribal lands in the Alexander Valley by prohibiting us from 
operating a gaming facility in the area. We had little choice but to 
agree to this condition because otherwise, with little or no resources 
of our own, we would have been forced to fight a protracted legal 
battle against a group of wealthy wineries and the county.
    After restoration, we re-established our tribal government, passed 
a constitution and elected a tribal council. We also began to look for 
a means out of the relentless poverty many of our members faced, and to 
rebuild our tribal community. The tribal council conducted a needs 
assessment to determine what alternatives were available to finance our 
tribe's mission of buying the land, building homes, providing roads, 
electricity, water, sewer and the other infrastructure necessary for 
our tribal community.
    We turned to gaming because the government offered that to us as a 
means of economic development, and because it generates enough money to 
allow us to get a loan and finance the rebuilding of our tribe and 
tribal community.
    Let me take a moment to explain the connection between Native 
Americans and gaming, and specifically about our tribe, and the gaming 
business. We are a poor people with few options for economic 
development. If we went to a bank and asked for money to build houses 
for our people, or a school, or even a business venture--they would 
show us the door. We have nothing to guarantee such a loan, and trust 
land cannot be used for collateral. Revenues from gaining will help us 
get members off welfare and provide them basic health care, education, 
job training and housing in a new small community on rural land in 
Sonoma County.
    The 1991 restoration agreement while barring us from operating a 
gaming facility in Sonoma County did not foreclose our right to find 
another community that might welcome us as partners. We found our road 
to economic self-reliance in the city of San Pablo where with help from 
private investors we purchased an existing card club that had been 
approved by local voters in 1994.
    The city and the tribe then negotiated a Municipal Services 
Agreement. At the time, such an agreement was unprecedented in 
California, and was the most protective arrangement between city and 
regional interests and an Indian tribe in California.
    But there were other hurdles to come. Although it was the 
Government's wrongful actions which resulted in the loss of our land, 
by the time the Government had admitted that, and prepared to make good 
our loss--the legal landscape for tribes had changed. A law had been 
passed which made it extremely difficult for tribes to operate gaming 
on lands taken into trust after 1988 unless Congress made the land 
eligible. Even though it was not our fault that we were in this 
position, and although the law had not been intended for landless 
tribes, but rather tribes with existing reservations, our efforts to 
seek help from the Department of the Interior went nowhere.
    Finally, Congress acted to take that land into trust for us as it 
has in the case of many other tribes in California and other States. 
This was the final option, after we had tried everything else. Thanks 
to the efforts of Congressman George Miller, who represents the 
district which includes our land, that proposal was introduced in 
legislative form, as an amendment to a large piece of Indian 
legislation. That was October 2000. On December 27 of that year, the 
President signed the bill into law.
    There were newspaper articles about this at the time, and 
subsequently, there were two attempts to repeal this proposal. Neither 
of those met with success. Senator Feinstein's legislation represents 
the third time there has been a proposal to take this land from us. 
And, as I explained earlier, given the economics of tribal life, to 
leave us with the physical earth, but to take away our right to do 
business on it--gaming in this case--makes the granting of the land an 
empty gesture. We believe it would be legally wrong to do that. Section 
819 conferred a highly valuable property right on our tribe by 
specifically entitling us to acquire land into Federal trust for Indian 
gaming. The Feinstein bill would deprive us of this right to conduct 
gaming on the land and would be a ``taking'' under the fifth amendment 
of the U.S. Constitution. And most certainly it would be morally wrong.
    That act, of taking land into trust for us in San Pablo, was not 
the beginning of this story. It was the end of a very long story--a 
story of poor treatment of our tribe at the hands of the Federal 
Government. That was an act of redress, making good the wrong that had 
been done to us more than 50 years before. To have simply said, ``We're 
sorry,'' and offered up a paper apology for the treatment of our tribe 
would have been wrong. Taking that land into trust represented a 
meaningful act of redress; taking that land out of trust would make 
that gesture so many empty words--and Senators, whatever you may think 
of this issue, I am sure you know our people have heard many empty 
words from this Government over the years.
    That is the background to our proposal for a casino project on our 
land in San Pablo.
    Our initial proposal in 1999 was for a modest gaming operation with 
something on the order of 1,000 slot machines. In the proposed compact 
that we signed with the Governor last year, that number was originally 
5,000, which was then revised down to 2,500 machines. Since there has 
been some controversy about the change, let me address that for 1 
moment.
    When we made our initial proposal in 1999, no compact, not ours or 
any other tribe's, provided for any revenue-sharing with the State of 
California. Nor did these compacts provide local and State governments 
opportunities for substantive environmental review, mitigation of local 
impacts or involvement in gaming regulation.
    We stepped up to the plate to do just that, reaching an agreement 
to pay an unprecedented [not just in California, but anywhere in the 
Nation] 25 percent of net gaming revenues to State and local government 
to pay for our fair share of public services and environmental 
mitigation. But that commitment also required more slot machines than 
originally envisioned.
    Along with various provisions to pay for mitigation measures 
required by our project, we agreed to two exhaustive environmental 
impact reviews prior to anything being built.
    Potential traffic and environmental problems would be identified 
and addressed. These provisions are modeled on the California 
Environmental Quality Act such as the inclusion of project alternatives 
and citizen participation in the process. But the compact took one 
further step by requiring the Tribe to complete agreements on 
mitigation measures identified in this environmental review with its 
neighbors in the city of San Pablo, the local county and the state 
transportation department.
    The tribe also agreed to participate in the State workers' 
compensation, unemployment compensation and disability benefit systems. 
The tribe has agreed to strong state oversight and review of gaining 
operations, including independent audits, background checks on 
employees, and prohibitions on gambling by anyone under 21.
    Over and above our compact obligations, the tribe spent the past 
months engaged with the community to hear their hopes and concerns 
about our project. We spoke with more than 3,000 individuals, met with 
dozens of elected officials and community leaders, and participated in 
more than 50 community meetings and forums.
    As a result, we reduced the size and scope of our project, to make 
it a better fit for the community, while still offering the creation of 
more than 6,600 new jobs and generation of an estimated $618 million 
each year in economic benefits, regionally and statewide. These jobs 
were particularly important in the city of San Pablo and surrounding 
region, where unemployment is high and there are not other major 
employers offering good jobs with health and retirement benefits. The 
tribe also committed to a local preference hiring policy, to help steer 
jobs to where they were most needed.
    We promised the Bay Area that our project would not include a hotel 
or nightclub, convention facility, amusement arcade or other facilities 
that would generate additional traffic. We also committed to advance 
$25 million to the state once our project was approved, to jump start 
necessary work on the freeway interchange closest to our facility.
    We negotiated and signed that compact with the Governor of 
California. We had the strong support of the city of San Pablo, where 
the casino would be located. We believe that the proposed compact 
represented a good deal for all parties. But notwithstanding all that, 
as you know, California's state Legislature has chosen not to act on 
the compact.
    As a result, we will now focus on exercising our rights under 
Federal law to operate a wider variety of class II gaming activities at 
Casino San Pablo. We will renovate the interior of the existing 
building to make it more attractive and to offer a wider variety of 
class II gaming activities, including class II electronic bingo games. 
These are not video lottery terminals. They will fall well within the 
definition of what constitutes class II gaming. We don't intend to push 
the envelope.
    For decades we worked to regain our name and our land. We obeyed 
the law, even when it was used against us. We followed the law. When 
the law allowed us to pursue gaming on our restored land in San Pablo, 
we did so. But already twice since then, there have been attempts to 
undo what you rightfully did. This legislation represents the third 
attempt to undo that act of justice toward our tribe. I ask you to say 
enough.
    I know that we are a small group, without much money, power, or 
influence. We have received more attention in the last year, over this 
casino proposal--than anyone paid to us for the decades that went 
before. I understand that there are many issues involved here today. I 
hear the talk about Indian gaming and all the other questions. What I 
don't hear, is any talk about our people, and Senators, this hearing is 
also about us.
    Senator McCain, we did not ask to be in this situation. We did not 
ask the Federal Government to take away our name and our land. But that 
happened. Now, decades later, when this Government has finally acted to 
right those wrongs--we believe it would be wrong to take away our right 
to pursue economic self-sufficiency--which is effectively what Senator 
Feinstein's bill would do. As I explained earlier, without the right to 
operate gaming on our land, which is a right given to us by both the 
Federal Government and the State of California, we cannot use that land 
to help ourselves.
    If this body wishes to address the various issues associated with 
Indian gaming, so be it. But I respectfully ask you, Senators, not to 
go back and retroactively change the rules for us. What this body did 
in 2000, was to do the right thing. It was to make good a wrong the 
Federal Government had committed against our tribe. I ask you to let 
that act of justice stand. Thank you.
                                 ______
                                 

     Prepared Statement of George Skibine, Acting Deputy Assistant 
    Secretary, Policy and Economic Development for Indian Affairs, 
                       Department of the Interior

    Good morning, Mr. Chairman, Mr. Vice Chairman, and members of the 
committee. My name is George Skibine, and I am the Acting Deputy 
Assistant Secretary for Policy and Economic Development in the Office 
of the Assistant Secretary--Indian Affairs at the Department of the 
Interior [Department]. I am pleased to be here this morning to offer 
the Department's views on S. 113, a bill to modify the date as of which 
certain tribal land of the Lytton Rancheria of California is deemed to 
be held in trust by the United States for the benefit of the Lytton 
Band of Pomo Indians [Lytton Band]. For the following reasons, the 
Department does not have any objections to this bill.
    The Bureau of Indian Affairs [BIA] authorized the transfer of 
several parcels of land in the city of San Pablo, in Contra Costa 
County, CA, on January 18, 2001, pursuant to section 819 of the Omnibus 
Indian Advancement Act of 2000, Public Law 106-568, which mandated the 
acquisition of the parcels, also known as the San Pablo Casino site, in 
trust for the Lytton Band. The Lytton Band's application was originally 
made under the authority of section 5 of the Indian Reorganization Act, 
25 U.S.C. 465, and was under consideration by the BIA under the 
authority, procedures, and policies governing the discretionary 
acquisition of land into trust by the Secretary contained in 
regulations at 25 CFR part 151. However, enactment of section 819 of 
Pubic Law 106-568 mandated the Secretary to take the San Pablo site 
into trust without consideration of the factors in the land acquisition 
regulations. The fact that the Lytton Band wanted to acquire the San 
Pablo Casino site for gaming purposes was immaterial to what had become 
the ministerial decision of the Secretary to accept the land into 
trust.
    The last sentence of section 819 provides that the San Pablo Casino 
site ``shall be deemed'' to have been held in trust as part of the 
reservation of the Rancheria prior to October 17, 1988.'' This 
provision permitted the Lytton Band to immediately operate a class II 
gaming establishment on the site without having to meet any of the 
requirements of section 20 of the Indian Gaming Regulatory Act of 1988 
[IGRA] which contains a prohibition on gaming on lands acquired in 
trust after October 17, 1988, unless one of several statutory 
exceptions contained in section 20 of IGRA is satisfied. The Lytton 
Band cannot operate a class III gaming establishment under IGRA unless 
it negotiates a compact with the State of California, and notice of the 
Secretary of the Interior's approval of the compact is published in the 
Federal Register. The Lytton Band and the State have not yet submitted 
such a compact to the Secretary for approval.
    S. 113, if enacted, would strike the last sentence of section 819. 
The practical effect of removing the so-called ``retroactive'' clause 
of section 819 will be to require the Lytton Band to seek an exception 
to the gaming prohibition contained in section 20 of IGRA if the Band 
wants to engage in either class II or class III gaming activities. We 
believe that the only exception under which the tribe could qualify is 
the exception contained in section 20(b)(1)(A) which requires the 
Secretary to make a determination that a gaming establishment on the 
trust land would be in the best interest of the tribe and its members, 
and not detrimental to the surrounding community, and is subject to the 
Governor of the State of California's concurrence. Unless and until the 
Secretary makes such a determination and the Governor concurs, class II 
or class III gaming activities would not be permitted on the San Pablo 
Casino site, effectively requiring the Lytton Band to shut down its 
current class II gaming operation on the property.
    The Department does not object to this bill because we believe that 
it is inappropriate to waive the requirements of section 20 of IGRA for 
any particular tribe. Section 20 imposes reasonable restrictions on the 
right of Indian tribes to engage in gaming activities on off-
reservation lands acquired in trust after the enactment of IGRA. The 
exception in section 20(b)(1)(A) in particular requires consultation 
with the local community, consideration of detrimental impacts, and 
gives the state ultimate veto power over gaming on the off-reservation 
land. We believe that the standard in section 20(b)(1)(A) has required 
Indian tribes to negotiate with the State and affected local 
governments before a casino is placed on off-reservation land. The 
Department supports the process of consultation and cooperation between 
Indian tribes and affected local communities and sees no reason to 
exempt any tribe from this process.
    Thank you for the opportunity to testify on S. 113. I will be happy 
to answer any questions you may have.

[GRAPHIC] [TIFF OMITTED] T0474.001

[GRAPHIC] [TIFF OMITTED] T0474.002

[GRAPHIC] [TIFF OMITTED] T0474.003

[GRAPHIC] [TIFF OMITTED] T0474.004

[GRAPHIC] [TIFF OMITTED] T0474.005

[GRAPHIC] [TIFF OMITTED] T0474.006

[GRAPHIC] [TIFF OMITTED] T0474.007

[GRAPHIC] [TIFF OMITTED] T0474.008

[GRAPHIC] [TIFF OMITTED] T0474.009

[GRAPHIC] [TIFF OMITTED] T0474.010

[GRAPHIC] [TIFF OMITTED] T0474.011

[GRAPHIC] [TIFF OMITTED] T1799.001

[GRAPHIC] [TIFF OMITTED] T1799.002

[GRAPHIC] [TIFF OMITTED] T1799.003

[GRAPHIC] [TIFF OMITTED] T1799.004

[GRAPHIC] [TIFF OMITTED] T1799.005

[GRAPHIC] [TIFF OMITTED] T1799.006

[GRAPHIC] [TIFF OMITTED] T1799.007

[GRAPHIC] [TIFF OMITTED] T1799.008

[GRAPHIC] [TIFF OMITTED] T1799.009

[GRAPHIC] [TIFF OMITTED] T1799.010

[GRAPHIC] [TIFF OMITTED] T1799.011

[GRAPHIC] [TIFF OMITTED] T0474.012

[GRAPHIC] [TIFF OMITTED] T0474.013

[GRAPHIC] [TIFF OMITTED] T0474.014

[GRAPHIC] [TIFF OMITTED] T0474.015

[GRAPHIC] [TIFF OMITTED] T0474.016

[GRAPHIC] [TIFF OMITTED] T0474.017

[GRAPHIC] [TIFF OMITTED] T0474.018

[GRAPHIC] [TIFF OMITTED] T0474.019

[GRAPHIC] [TIFF OMITTED] T0474.020

[GRAPHIC] [TIFF OMITTED] T0474.021

[GRAPHIC] [TIFF OMITTED] T0474.022

[GRAPHIC] [TIFF OMITTED] T0474.023

[GRAPHIC] [TIFF OMITTED] T0474.024

[GRAPHIC] [TIFF OMITTED] T0474.025

[GRAPHIC] [TIFF OMITTED] T0474.026

[GRAPHIC] [TIFF OMITTED] T0474.027

[GRAPHIC] [TIFF OMITTED] T0474.028

                                 <all>

</pre></body></html>
